No.

IN THE
SUPREME COURT OF THE UNITED STATES

ASHLEE R. HULL, individually and in her capacity
as Co-Executrix of the Estate of John Edward
Hull, Sr., and MISTY G. ADKINS, individually and
in her capacity as Co-Executrix of the Estate
of John Edward Hull, Sr.,
Petitioners,
vs.
DR. MUHAMMED SAMAR NASHER-ALNEAM,
NEUROLOGY & PAIN CENTER, PLLC,
DR. CLARK DAVID ADKINS, BONE AND JOINT SURGEONS, INC.,
DR. DELENO H. WEBB, III, The Estate of
ERIC S. WEBB, PLC, and AREA PSYCHIATRIC AND
PSYCHOTHERAPY GROUP, INC., DOE PHYSICIANS 1-99,
DOE PHARMACIES 1-99, DOE PHARMACISTS 1-99,
and DOE CORPORATIONS 1-99,
Respondents.

PROOF OF SERVICE

We, Ashlee R. Hull, do swear or declare that on this date, June 4, 2021, as required by
Supreme Court Rule 29,1 have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the

United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
J. Dustin Dillard, Esq.
Flaherty Sensabaugh Bonasso
200 Capitol Street
Charleston, WV 25301
Counsel forRespondent Bone & Joint Surgeons, Inc. and
Dr. Clark D. Adkins

Ryan Ashworth, Esq.
Offutt Nord Burchett, PLLC
949 Third Avenue
Suite 300
Huntington, WV 25701
Counsel for Respondent Dr. Muhammed Samar Nasher-Alneam and
Neurology & Pain Center, PLLC

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 4, 2021.
Ashlee R. Hull
6089 Finn Glenn Drive
Westetyille, Ohio 43081

llofhf ^MuM AdJCmb 1

Misty Hull Adkins
83 Burnside Drive
ElkviewT'W V 250^

?6hn E. Hull
P.O. Box 2
Cabin Creek, WV 25035
Pro Se Applicants

